No.

IN THE
SUPREME COURT OF THE UNITED STATES

Kesha S. Packer

— PETITIONER

(Your Name)
VS.
Wisconsin Department of Corrections

— RESPONDENT(S)

PROOF OF SERVICE

Kesha Packer _________________, do swear or declare that on this date,

I,

20_21, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
March 16,th

The names and addresses of those served are as follows:
Joshua Kaul, Attorney General of Wisconsin. Wisconsin Department of Justice P.O. Box 7857, Madison, Wisconsin 53707-7857
Colin A. Hector, Assistant Attorney General, Wisconsin Department of Justice, P.O. Box 7857, Madison, Wl 53707-7857

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

March 16 th

,20-21

(Signature)

